No. 19-

 

 

IN THE

Supreme Court of the United States

ASSURED GUARANTY CorP.; ASSURED GUARANTY
MUNICIPAL CoRP.; AND NATIONAL PUBLIC FINANCE
GUARANTEE CORPORATION,

Petitioners,

v.

FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,925 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 20, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
